                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-24                                    Office of Inspections                                September 2014




                      Inspection of
          the Bureau of International Narcotics
              and Law Enforcement Affairs




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Findings                                           1
Context                                                2
Introduction                                           4
Leadership                                             5
   INL Programming Cycle                               7
   Front Office Division of Responsibilities           8
   Resource Management Oversight                       8
   Program Office Organization                         9
   Bureau Organization Findings and Recommendations   11
Foreign Assistance Oversight                          12
   Decisionmaking and Documentation                   12
   Country Plans                                      12
   Sustainability                                     13
   Competition                                        13
   Roles and Responsibilities                         14
   Policies and Procedures                            14
   Monitoring Performance                             15
Strategic Planning and Budgeting                      17
Financial Management                                  18
   Automated Financial Management Systems             18
   Acquisition Support                                19
Training                                              21
   Bureau Orientation                                 21
   Competency Training                                21
   Foreign Service Institute Training                 22
   Bureau Communication                               22
Records and Files                                     24
   Project Files                                      24
   Records Management                                 24
Information Management                                25
   Information Technology Strategic Planning          25
Security Management                                   27
List of Recommendations                               28
Principal Officials                                   31
Appendix: Human and Financial Resources               32
Abbreviations                                         33




                                    iii
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
•   The Bureau of International Narcotics and Law Enforcement Affairs is an influential and
    significant presence among Federal agencies engaged in international law enforcement,
    counternarcotics, and civilian security. The Bureau of International Narcotics and Law
    Enforcement Affairs and its programs enjoy broad support from U.S. chiefs of mission in the
    field.

•   The Bureau of International Narcotics and Law Enforcement Affairs has made progress in
    managing programs but needs to execute systematically standard budgeting, program
    planning, monitoring, and performance management procedures.

•   The Bureau of International Narcotics and Law Enforcement Affairs senior leadership
    focuses on broad issues of programs and policy but does not regularly engage as active
    participants in the planning, allocation of resources, and management of foreign assistance
    programs. Bureau leadership has largely delegated to the working level the responsibility for
    oversight of, and accounting for, a $6-billion foreign assistance portfolio.

•   The Bureau of International Narcotics and Law Enforcement Affairs structure is not
    consistent with the Department’s organizational principles nor optimally suited to support its
    operations. Program management is segregated by region and function and is removed from
    resource management. These organizational problems contribute to the bureau’s challenges
    in program management.

•   The Bureau of International Narcotics and Law Enforcement Affairs Office of Resource
    Management combines too many functions and too much responsibility under one office
    director, impeding bureau accountability for foreign assistance resources.

•   The Department of State’s budgeting and accounting systems are not designed to manage
    foreign assistance. As a direct consequence, the Bureau of International Narcotics and Law
    Enforcement Affairs staff is required to engage in time-consuming, inefficient, and parallel
    processes to track the bureau’s finances.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect.

The inspection took place in Washington, DC, between April 9 and June 24, 2014. Ambassador
Robert M. Beecroft (team leader), Seth Winnick (deputy team leader), Richard Behrend, Eric
Chavera, Craig Cheney, Karen Davidson, Ellen Engels, Richard English, John Haynes, Georgia
Hubert, Ken Moskowitz, John Philibin; Addison Ricks, Ashea Riley, Iris Rosenfeld, Sarah Soun,
and Frank Young conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
       The Bureau of International Narcotics and Law Enforcement Affairs (INL) is one of only
a handful of bureaus in the Department established and structured to manage foreign assistance
programs. It is funded primarily by the International Narcotics Control and Law Enforcement
(INCLE) foreign assistance account, rather than as part of the appropriation for Diplomatic and
Consular Programs. The bureau has its own appropriation, programs, and offices in 40 U.S.
embassies. INL’s overseas section chiefs are members of ambassadors’ country teams.

         Congress established the Bureau of International Narcotics Matters in 1978 and gave it
authority over an international narcotics control program. Presidential Decision Directive 14 of
1993 changed the emphasis in U.S. counternarcotics strategy from interdiction to helping other
nations strengthen their institutions, including police and judicial systems. In 1995, the
Department renamed the bureau and expanded its functions to include law enforcement affairs,
transnational crime, and money laundering. In 1996, Congress amended the Foreign Assistance
Act of 1961 to designate assistance for the prevention and suppression of international criminal
activities as a priority for the United States. Congress also provided the President with broad
authority “notwithstanding any other provision of law” to furnish international assistance for
narcotics control or for other anticrime purposes. The President has delegated authority to the
Secretary, and the Secretary has in turn delegated authority to the INL Assistant Secretary. In
2000, President Clinton assigned to the Department lead agency responsibility for reform of
criminal justice systems in connection with peacekeeping and complex contingency operations.

        In the aftermath of the terrorist attacks of September 11, 2001, the bureau became the de
facto civilian security assistance arm of the Department in Iraq and Afghanistan. INL assistance
programs doubled between FY 2003 and FY 2004. The end of massive U.S. engagement in those
countries opens another period of transition for the bureau. In 2013, Presidential Policy Directive
23 on security sector assistance further clarified the lead agency role of the Department, largely
delegated to INL, and the coordinating responsibility of chiefs of mission.

         INL defines its mission as follows: “Minimize the impact of transnational crime and
illegal drugs on the United States, its citizens, and partner nations by providing effective foreign
assistance and fostering greater bilateral and multilateral law enforcement and rule of law
cooperation.” INL employs training, assistance, partnerships with U.S. and foreign law
enforcement institutions, and diplomatic collaboration with foreign governments to support its
mission. Its anti-crime programs target corruption and transnational criminal networks that move
drugs and launder money. INL’s counternarcotics assistance helps interdict illicit drugs and
dismantle drug trafficking organizations. Its rule of law programs build host nations’ criminal
justice systems in areas such as law enforcement, courts, prosecutors, criminal defense, and
corrections.

        The bureau has a Washington-based staff of some 350 people. Four geographic offices
manage country programs and support overseas INL sections. Three functional offices provide
international law enforcement and counternarcotics policy direction, coordination with
multilateral organizations, justice sector expertise, and technical assistance. Two of these offices
manage some assistance programs. One functional office contains a public affairs and public
diplomacy unit. Close to half the bureau’s Washington-based staff works in the eight divisions of

                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

the Office of the Controller/Resource Management, which is responsible for administering
billions of dollars in obligated foreign assistance funds, developing doctrine for strategic
planning and assistance programs, and providing bureau administration and support.

       INL sections—with more than 900 U.S. and locally employed staff members at 40
diplomatic missions—make up the bureau’s full-time overseas presence. Officers at 25 other
overseas missions manage INL programs on a part-time basis.

       INL manages a $6-billion foreign assistance project portfolio with programs in 91
countries. Its annual budget declined—from $1.9 billion in FY 2013 to $1.4 billion in FY 2014,
with $1.1 billion requested for FY 2015—marked by reductions in major accounts, including
Afghanistan, Colombia, and Mexico.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Introduction
         In performing this regularly scheduled inspection of INL, the OIG team conducted a
confidential survey of bureau staff focused on the quality of leadership and supervision; overall
strengths and weaknesses of the bureau; the quality of bureau services; and possible waste, fraud,
and abuse. The team also sent confidential surveys to 49 staff members managing INL programs
overseas and received 29 responses. The team also surveyed 37 chiefs of mission in INL
program countries and received 16 responses. The team interviewed more than 300 bureau
employees and observed regular bureau internal meetings. Inspectors examined the bureau’s
program management and oversight procedure and policy documents and, using discretionary
criteria, sampled and reviewed more than 70 project files, including grants, contracts,
interagency agreements, and bilateral letters of agreement from all regions. These projects
represent slightly less than 50 percent of the $1.1 billion that INL obligated in FY 2013.

       The judgments in this report are based on those interviews, documents, surveys, and
observations and reflect the conclusions of an inspection team with substantial experience
covering all functions of the Department at overseas missions and in Washington.

        This inspection was limited to INL’s Department-based operations, including centrally
managed foreign assistance programs, as well as support for INL sections at embassies overseas
and the assistance programs they manage. The overseas sections themselves were not part of this
inspection.

        Programs and projects INL manages have been the subject of 95 audit and inspection
reports during the past 5 years by the Department of State OIG, the U.S. Government
Accountability Office, the Special Inspector General for Iraq Reconstruction, the Special
Inspector General for Afghanistan Reconstruction, the United States Agency for International
Development (USAID), and the Departments of Defense and Justice. A number of audits,
inspections, and investigations were ongoing during this inspection. This inspection took care not
to duplicate audits and other assessments that were ongoing, completed, or planned.

       A unique feature of INL is its Office of Aviation, commonly known as the Air Wing.
Headquartered at Patrick Air Force Base in Florida, the Air Wing has a staff of 80 plus a
contractor workforce of 1,600 and operates 150 aircraft around the world in support of INL
programs and other Department aviation requirements. The Inspection team determined that the
Air Wing—a distinct entity in terms of its operations, program, staffing, and location—was
beyond the scope of the present inspection and should be the subject of a separate inspection or
audit.




                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Leadership
       The Assistant Secretary for International Narcotics and Law Enforcement Affairs is a
career Ambassador, the most senior rank in the Foreign Service. He assumed leadership of INL
in 2011, as the bureau was contemplating its fourth major reinvention in as many decades. In
2013, the Assistant Secretary implemented a draw down of the bureau’s Iraq portfolio of $850
million to a small residual program in the span of 4 months. At the time of the inspection, he was
overseeing a realignment of programs that the United States had “surged” in Afghanistan,
beginning in 2009.

         The Assistant Secretary has faced demands from Department officials and other
Washington agencies to use INL’s program management infrastructure and assistance funding as
a crisis response tool. With budgets declining, he enunciated strategic guidance—derived from
Presidential Policy Directives and the Quadrennial Diplomacy and Development Review
(QDDR)—directing INL funding to programs clearly within the bureau’s mandate of supporting
civilian security sector development. Given the magnitude of the challenges that confront INL,
the Assistant Secretary takes the long view that INL’s work is a decades-long endeavor, and he
sets an example of assurance and resolution in leading the bureau.

         He instructed bureau staff members to allocate resources on the basis of chief of mission
priorities for achieving foreign policy and national security objectives. He also limited INL
commitments to those new programs and projects that INL can design and monitor. For example,
inspectors observed the bureau reprogram funding—on short notice—to increase its support for
justice sector reform in Ukraine, where the bureau has an ongoing program and personnel on the
ground. In contrast, the Assistant Secretary declined to engage INL in the search for kidnapped
girls in Nigeria, insisting that INL programs would be appropriate for longer-term justice sector
development and institution building, not for supporting a rescue mission.

       Under the direction of the Assistant Secretary, INL has improved its relations with other
agencies working in the justice sector. The inspection team’s survey of chiefs of mission in INL
program countries showed strong support and cooperation between the bureau and the chiefs of
mission and their country teams.

        INL’s Functional Bureau Strategy provides a framework for connecting its broad range of
mandates with its programs. The Strategy defines how the bureau matches its tools, in particular
its multi-billion-dollar foreign assistance portfolio, with U.S. foreign policy goals. Bureau staff
members are familiar with the Strategy and use it to map program development.

       According to confidential surveys and inspectors’ interviews, the bureau’s four Deputy
Assistant Secretaries (DAS)—three Foreign Service Officers and one Civil Servant—are well
regarded. Management of the bureau has strengthened steadily under the current Assistant
Secretary, according to a number of observers.

       Notwithstanding the capabilities of INL’s leadership and its experience in policy
development, OIG inspectors found that INL’s overall management of foreign assistance
resources—including program design, implementation, monitoring, and evaluation processes—is
inconsistent and in many cases does not meet INL or broader U.S. Government requirements.

                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Numerous audits and inspections—including by OIG, the U.S. Government Accountability
Office, and the Special Inspectors General for Iraq and for Afghanistan Reconstruction—have
documented these problems.

        Inspectors found that the bureau’s processes for program approval and resource
allocation do not raise to the level of senior leadership key issues regarding program design and
performance or consideration of project outcomes. The organizational structure of the bureau
separates program management from resource management to the detriment of both. The
Assistant Secretary told the inspectors that his philosophy was based on delegating authority for
INL programs, rather than on centralized control, and that INL programs followed a flexible
approach by country and by region, rather than a “universal standard.”

        Inspectors noted that the process for budgeting and obtaining appropriated funds is
lengthy and labor intensive at all levels in the bureau. Compliance with various notifications and
certifications required by congressional appropriations can take more than a year. More than
halfway through FY 2014, congressional notifications and clearances remained pending,
preventing INL from programming FY 2013 INCLE appropriations. One effect is that leadership
pays more attention to obligating foreign assistance funds than to program oversight.




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

INL Programming Cycle 1




        Inspectors determined that INL senior leadership focuses on the processes for the
appropriation fiscal year (see above chart) and for implementation of the fiscal year
appropriation, particularly execution of implementing documents to obligate funds. Senior
leadership involvement decreases at the planning level and seldom engages in project design,
planning, and approval, although it does participate in INL’s budget formulation, budget reviews,
and foreign assistance working groups. Neither the Assistant Secretary nor the deputy assistant
secretaries are consistently involved at the reporting/evaluation (monitoring and evaluation)


1
    INL Program and Project Management Course, Foreign Service Institute PP 420.


                                             7
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

phase, where performance and sustainability issues that may require corrective action or that may
influence future decisions on resource allocation are more likely to arise.

Front Office Division of Responsibilities

        At the outset of the inspection, the Assistant Secretary invited the inspectors to pay
attention to bureau structure. The INL front office organizational chart has gone through four
iterations in the past 5 years, as duties and responsibilities have moved among the four DAS
positions. At the time of the inspection, each DAS was assigned one regional portfolio and one
functional office. The Principal DAS was responsible for the Office of Resource Management,
the Air Wing, and the Office of Europe and Asia Programs.

        Inspectors found that the three functional offices, each reporting to a different DAS, have
overlapping responsibilities. Splitting these functional offices among the DAS positions,
grouping each of them with an unrelated regional office, has led to stovepiping. INL staff at all
levels stated that the division of responsibilities among the functional offices was not logical.
Each of the four geographic offices has different procedures for broadly similar functions.
Offices do not regularly learn from each other’s successes and failures. Of note, the Office of
Western Hemisphere Programs has resolved many problems that continue to exist in the other
regional offices. This office is, to a considerable degree, the “old” Bureau of International
Narcotics Matters and has the benefit of 35 years of practical experience. The bureau would
benefit from grouping like functions more closely in the organization of DAS responsibilities, in
accordance with the Department’s organizational principles, contained in 1 FAM 014.7. The
inspection team suggested to the Assistant Secretary that he reexamine the DAS positions as they
turn over to more closely align like functions, improve communication among offices, and
reduce stovepiping.

Resource Management Oversight

        The Office of Resource Management comprises half of INL’s Washington-based staff.
Eight divisions report to a Senior Executive Service office director, who is dual-hatted as the
bureau’s controller and executive director. RM functions include strategic planning, budget
formulation, contract and grants administration, budget execution, program evaluation, audit
oversight, human resources, information technology, security, and administrative services. The
roles and responsibilities of some of RM’s divisions overlap. Others belong more appropriately
elsewhere in RM or INL. Grouping dissimilar functions in one large office results in a wide span
of control, contrary to 1 FAM 14.5, that creates decision bottlenecks and slows information
sharing with the program offices and the Front Office.

       Inspectors determined that RM combines three distinct functions:

      comptroller functions, managing INL’s $6 billion in program funds, implementing
       agreements and procurement (currently RM’s Budget Execution Division, Contract
       Administration Support Division, Grants, Acquisitions and Procurement Policy Division,
       and the Audit and Oversight Services division, exercise comptroller functions);



                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

   •   planning and budgeting functions, including annual budget request, bureau strategies, and
       program management doctrine (RM’s Budget Policy Division and Program Assistance
       and Evaluation Division currently perform these functions);

   •   executive office functions, including human resources, information technology, and
       general services and security.

Dividing these functions into three offices would strengthen each function, eliminate one
supervisory layer, and encourage closer interaction between the comptroller/strategic planning
functions and the front office/policy and program offices.

Recommendation 1: The Bureau of International Narcotics and Law Enforcement Affairs
should divide the Office of Resource Management into three offices: an Office of the
Comptroller; an Office of Strategic Planning and Budgeting; and an Executive Office—all three
reporting to the same deputy assistant secretary. (Action: INL, in coordination with DGHR)

Program Office Organization

       The bureau’s staffing for policy direction and coordination and for program support is
divided among three functional offices. Each of the three offices reports to a different DAS, thus
contributing to the stovepiping problem.

Public Affairs and Public Diplomacy

        The Office of Policy, Planning, and Coordination houses three distinct functions: drug
control policy issues; relations with multilateral organizations, including some assistance
programs implemented by these organizations; and public affairs and public diplomacy. The
Public Affairs and Public Diplomacy unit supports the entire INL bureau and its overseas
sections and has little interaction with the other units in the office. Typically, Department press
officers and advisors work closely with principals, but INL’s senior public affairs officer is
separated from the Assistant Secretary by four levels of hierarchy. At the time of the inspection,
the INL front office was planning to hire a media advisor to support the front office as a
workaround intended to address this disconnect.

Recommendation 2: The Bureau of International Narcotics and Law Enforcement Affairs
should move the Public Affairs and Public Diplomacy unit to the front office. (Action: INL)

Policy Direction, Coordination, and Program Support

        The Office of Anticrime Programs directs policy on anticorruption, anti-money
laundering, border security, alien smuggling, transnational organized crime, cybercrime, wildlife
trafficking and drug demand reduction. It also manages drug demand reduction programs
(approximately $13 million for FY 2014) and serves as the bureau’s subject matter expert in this
area. The office also manages five International Law Enforcement Academies located in
Hungary; Thailand; Botswana; El Salvador; and Roswell, New Mexico (approximately
$32 million for FY 2014 for the five academies). The International Law Enforcement Academies
draw on approximately a dozen federal law enforcement agencies to provide regional training
and technical assistance to build foreign law enforcement capabilities.
                                                 9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        In 2010, INL created the Office of Criminal Justice Assistance and Partnership to provide
subject matter expertise and program support in police, justice, and corrections training,
including management of assistance provided through U.S. state and local partners or other
implementers. While most training activities are conducted in program countries, the office also
manages training for foreign corrections officers at state-run centers in Colorado and New
Mexico, similar to the International Law Enforcement Academy model. The Office of Criminal
Justice Assistance and Partnership has also used its state and local justice and law enforcement
trainers to support the Office of Anticrime Programs International Law Enforcement Academy
training activities.

        Responsibilities overlap among the Office of Policy, Planning, and Coordination; the
Office of Anticrime Programs; and the Office of Criminal Justice Assistance and Partnership.
These offices’ portfolios were the result of an accretion of duties over time, rather than sound
planning or a logical division. For example, the Office of Policy, Planning, and Coordination is
not responsible for planning and has policy and coordination responsibility only for narcotics and
relations with multilateral organizations. Grouping like functions together would result in a
consolidation of policy direction functions in one office and program and technical assistance
expertise in another.

Recommendation 3: The Bureau of International Narcotics and Law Enforcement Affairs
should reorganize the Office of Anticrime Programs; the Office of Criminal Justice and
Assistance Partnerships; and the Office of Policy, Planning, and Coordination into two offices,
one of which should be responsible for policy direction and coordination and the other
responsible for training, justice system subject matter expertise, and technical assistance.
(Action: INL, in coordination with DGHR)

Africa and Middle East Programs

       INL’s Office of Africa and Middle East Programs is the largest of the bureau’s four
geographic offices, with 40 staff in 2 divisions. In June 2013, INL closed its Office of Iraq and
merged it into the Office of Africa Middle East Programs. The office oversees programs in 30
countries, of which only 13 have resident INL staff.

        The span of control requires that the office director and deputy oversee all the country
programs in two regions of great size and complexity. Division chiefs are overextended. Their
divisions meet the 1 FAM 14.7 (d) criteria for stand-alone offices. Supervision and quality
control over project design and performance management are impeded. Communication between
the Africa and Middle East divisions of the office is minimal due to different program strategies
and management practices.

         INL employs distinct program strategies and management models for the two regions.
Africa programs emphasize transnational organized crime, drug trafficking, post-conflict
stabilization, security reform, and criminal justice. INL also coordinates major regional
initiatives, such as the West Africa Cooperative Security Initiative and the Trans-Sahara Counter
Terrorism Partnership. Programs in Africa are relatively labor intensive, with a portfolio of 81
projects, valued at $77.9 million. Middle East programs, which account for 84 percent ($348
million) of the office budget, are spread among 64 projects. These focus on criminal justice and

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

corrections following the Arab Spring, counterterrorism, programs to address the refugee influx
in countries neighboring Syria.

        OIG Inspectors observed that both regions are volatile—requiring agility as INL adjusts
to changing political situations—and both portfolios are growing. Programs in Africa are
absorbing new policy objectives to combat wildlife trafficking and to increase the number of
countries involved with the West Africa Cooperative Security Initiative. Programs in Africa are
absorbing new policy objectives to combat wildlife trafficking and to increase the number of
countries involved with the West Africa Cooperative Security Initiative. Middle East programs
addressing issues in Syria and Libya are also expanding. The INL resident staff in both regions is
limited, and programs rely on Washington-based staff for program development and
management.

        Splitting Middle East programs and Africa programs into two separate offices would
allow the bureau to better manage existing resources and better adapt to anticipated program
changes. It would also permit the creation of two teams in each office. This would facilitate more
effective supervision and program oversight. The bureau is cognizant of the issue and has been
considering whether to “flatten” the structure of the existing Office of Africa and Middle East
Programs into four teams. While this might ease supervisory burdens, it perpetuates the grouping
of two large and substantively and programmatically different regions and does not address the
resulting problems associated with program oversight and resource management.

Recommendation 4: The Bureau of International Narcotics and Law Enforcement Affairs, in
coordination with the Bureau of Human Resources, 2 should divide the Office of Africa and
Middle East Programs into two separate geographic offices. (Action: INL, in coordination with
DGHR)

Bureau Organization Findings and Recommendations

        At the conclusion of the inspection, the team shared its findings with bureau leadership
and office directors. Bureau leadership did not concur with the organizational recommendations
above, although generally accepting the process recommendations related to the foreign
assistance programs detailed below. The team determined that problems with the structure and
organization of the Office of Africa and Middle East Programs, the three functional offices, and
the Resource Management office were key factors underlying the bureau’s problems and
shortcomings in program management. Resolving these organizational issues is integral to
improving program management and to addressing the recommendations below.




2
 The role of the Bureau of Human Resources in the organizational review and approval process is specified in 3
FAM 2615.4 and 2615.5.

                                           11
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Foreign Assistance Oversight
         INL has made progress since the Department issued the first QDDR in 2010 in managing
its foreign assistance programs. Initiatives include development of new doctrine and operating
procedures, establishing an office of subject matter experts to support project life cycles, a
human capital development plan, and a knowledge management initiative to make information
widely accessible to staff. In spite of these advances, INL has not met the QDDR standard to
“substantially strengthen INL’s program management and oversight capabilities to increase
accountability and operational effectiveness, including the processes by which INL designs,
implements, oversees, and measures its programs.” Training is not keeping pace with new
doctrine. Program officers and other staff members are not keeping complete records. The
bureau needs to exercise greater quality control to ensure that program officers follow standards
and procedures.

Decisionmaking and Documentation

        The bureau falls short in documenting its internal deliberations, decisions, and
procedures. While bureau principals are clear in their instructions to senior staff, these are not
consistently disseminated below the office director level. The Assistant Secretary and deputy
assistant secretaries use thrice-weekly senior staff meetings to make decisions and issue
instructions, but the bureau keeps no formal record of these decisions and does not disseminate
meeting notes. The result is duplication of effort, inconsistent communication, lack of decision
records, and the absence of the Assistant Secretary’s voice at the working level.

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs
should systematically record and disseminate policy and program decisions and taskings,
including those issued in front office meetings. (Action: INL)

Country Plans

        Each INL office employs a different approach to program planning and monitoring. The
regional offices do not regularly share best practices with each other, and the quality of planning
varies from region to region. Country planning documents do not contain performance
information needed for decisionmakers to address implementation problems, financial
management difficulties, or issues of congressional interest. The bureau has no criteria or
standard practices for presenting country plans to the front office for approval. Without this
information, decisionmakers lack information about what is working and what needs to be
corrected.

       The Office of Western Hemisphere Programs, INL’s longest established unit, uses
country plans to translate U.S. Government and bureau strategies into action on the ground. A
country plan helps prevent diversion of funds to non-strategic purposes, provides a framework
for developing new projects, and defines objectives. The plans are used as reference documents
and as guides for program implementation.

       Planning at the country level helps sort out priorities and ensures that the limited funds
available for each country go to projects that are good investments. The Department’s

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Performance Management Guidebook and associated INL guidance contain instructions, derived
from the Government Performance and Results Act of 1993, that require use of performance
information to guide decisions on resource allocation.

Recommendation 6: The Bureau of International Narcotics and Law Enforcement Affairs
should require that each regional program office develop country plans in alignment with
Integrated Country Strategies and other applicable strategic planning instruments, integrating
performance information, for every country in which it conducts programs or projects. (Action:
INL)

Sustainability

       INL programs do not consistently include sustainability in project design or as a
performance measure for monitoring and evaluation. The ability of partners to sustain further
progress on their own is a goal of development cooperation under 18 FAM 55.1. OIG inspectors’
review of INL project files showed that few contained information or metrics assessing how the
host country could maintain the project outcomes after the end of INL assistance.

        Bureau guidance on sustainability in project design is scattered among several documents
and training programs. The bureau’s Project Design Guidebook discusses the need for
sustainability analyses but provides only general guidance and does not include the development
of valid metrics. INL’s “Introduction to INL Program and Project Management” course
introduces the requirement for Performance Measurement Plans for INL projects but provides no
guidance on how to develop appropriate sustainability indicators. One INL office has developed
its own standard indicators and performance measures, but other offices have not adopted this
tool. USAID in 2012 also developed a detailed “Sustainability Design Tool,” which provides
useful guidelines and criteria for project designers.

        Sustainability is one of the five “foreign assistance effectiveness principles” in the
QDDR, and INL programming guides require that projects include goals and metrics to assess
the sustainability of projects following the end of U.S. Government assistance. However, INL
does not enforce this requirement. Programs are unlikely to achieve sustainable outcomes unless
the concept is incorporated and evaluated across the project life cycle. Annual project reviews
and regular office portfolio reviews, focusing on project performance toward achieving
sustainability, would help program officers integrate this critical consideration into their regular
monitoring and evaluation duties.

Recommendation 7: The Bureau of International Narcotics and Law Enforcement Affairs
should develop sustainability guidance that includes best practices and contains standardized
metrics that are required for performance measurement plans. (Action: INL)

Competition

        INL does not consistently encourage competition in awarding grants. In FY 2013, INL
awarded 82 of 250 grants and cooperative agreements with sole-source justifications instead of
full and open competition, as outlined in Grants Policy Directive 5, Revision 4, from the Office
of the Procurement Executive. While 74 of the grants were for travel or property or amendments
to existing grants, INL could use Fixed Obligation Grants as outlined in the Office of the
                                        13
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Procurement Executive Grants Policy Directive 35, Revision 1, which permits grants officers to
use the fixed obligation grant for grants valued at $25,000 or less. Inspectors recognize the
uniqueness and occasional urgency of INL programs; however, decisions not to compete grants
were often poorly justified. By competing its grants awards on www.grants.gov, INL can
promote fairness, transparency, and cost-effectiveness in the selection process.

Recommendation 8: The Bureau of International Narcotics and Law Enforcement Affairs
should use full and open competition as the default mechanism for awarding grants and
cooperative agreements. (Action: INL)

Roles and Responsibilities

         Inspectors found that INL staff in program offices are unclear about the respective roles
of INL’s Washington-based program officers, INL’s Washington-based resource management
staff, the Bureau of Administration Office of Acquistions Management staff (AQM), overseas
INL section direct-hire and locally employed staff, and, in some cases, project grantee or
contractor staff in managing foreign assistance. The reason for the confusion is that the bureau
has no comprehensive guidance that defines each role and its relation to other roles. For
example, one bureau office developed its own guide for program officers, but it does not define
the roles of other staff in the program management process, and it is not used in other bureau
offices. The Department’s Grants Policy Directive Number 28 defines roles and responsibilities
for grants officers, grants officer representatives, and budget and finance officers but defines
responsibilities for program officers only during the pre-award phase. The Foreign Affairs
Handbook (14 FAH-2 H-140) establishes responsibilities for contracting officers and contracting
officer representatives.

        The program staff’s lack of understanding of the roles and responsibilities of different
functions creates the risk that some program management functions will be neglected, that
different staff will give conflicting guidance to implementing partners, or that staff will attempt
to act beyond their authority.

Recommendation 9: The Bureau of International Narcotics and Law Enforcement Affairs
should define specific roles and responsibilities for program management across the life cycle of
a program, both in Washington and overseas. (Action: INL)

Policies and Procedures

       Within the past 2 years, the bureau has developed 4 major new guides to program design
and management 3 and issued 92 standard operating policies and procedures, including 63 in
2014, 35 of which were between April and June. Although program and financial management
staff members welcome them, these initiatives also create management challenges. Bureau
managers recognize that the large volume of material creates a demand for training, an issue
addressed elsewhere in this report.


3
 Project Design Guide 6/20/12, Guide to Results Frameworks 6/20/12, Guide to Developing a Performance
Measurement Plan 6/20/12, and Financial Management Handbook 6/14.

                                          14
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Staff members are uncertain about what is required and what is optional. For example,
the Project Management Information System is a SharePoint-based platform that RM developed
to track projects, but it is neither mandatory nor broadly used. Program officers are the main
customers for new guidance, but they receive little advance warning or consultation before RM
rolls out new guidance. Offices do not have sufficient opportunity to influence the content of
new templates. As a result, delays arise in project-related actions and in reworking existing
documents.

Recommendation 10: The Bureau of International Narcotics and Law Enforcement Affairs
should standardize its process for drafting, testing, disseminating, and implementing all new
program management policies and procedures. (Action: INL)

Monitoring Performance

        INL does not apply consistent standards for monitoring and documenting program
performance. Consequently, it is difficult for the bureau to determine what adjustments are
needed, plan effective programs, justify resource requests, report results to oversight entities, and
engage in policy dialogue with stakeholders. The bureau’s Standard Operating
Policy/Procedures on Monitoring and Evaluation of Programs, issued in April 2014, contains a
quarterly progress report template, but all officers do not use it for all programs. Letters of
agreement with host governments contain standard provisions that require periodic bilateral
meetings to evaluate progress and report on these evaluations. The team surveyed program
officers across regional offices, only one of whom could confirm that this requirement is being
met. Inspectors’ review of project files showed that in many cases, performance metrics were not
measureable or verifiable or were absent altogether. Frequently, performance monitoring
documents in the files were nothing more than activity reports from the project implementer.

        U.S. Government, Department, and bureau policies require regular monitoring of
program performance. INL’s Standard Operating Policy/Procedures on Monitoring and
Evaluation of Programs and the Department’s Grants Policy Directive Number 42 describe
monitoring as a periodic assessment of results to ensure good stewardship of funds. The 2013
Presidential Policy Directive 23 on Security Sector Assistance specifies that resource allocation
should be evaluated on the basis of several factors, including performance against measures of
effectiveness.

Recommendation 11: The Bureau of International Narcotics and Law Enforcement Affairs
should make compliance with its Standard Operating Policy/Procedures on Monitoring and
Evaluation mandatory. (Action: INL)

Trip Reports

        INL does not have a policy on documenting official travel to program countries and
projects. INL officers travel frequently to their respective countries to monitor and evaluate
programs. INL’s Office of Western Hemisphere Programs requires its officers to submit trip
reports that record key information, conclusions, and recommendations. These documents
usually provide extensive reporting on projects in the area and become part of the country
program file. Other INL offices encourage trip reports but do not require them. In many cases, no
record exists of what a trip achieved, the status of programs or projects visited, or problems to
                                        15
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

address. Inspectors’ review of project files confirmed that few contained trip reports that
document project performance.

Recommendation 12: The Bureau of International Narcotics and Law Enforcement Affairs
should require all staff to submit trip reports promptly. (Action: INL)




                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Strategic Planning and Budgeting
        INL lacks a standard process for using performance results to inform strategic planning
and budgeting. The Department’s Program Evaluation Policy in 18 FAM 316.2 states that
“evaluations are only meaningful if they are used,” and that bureaus should “integrate evaluation
findings into decisionmaking about strategies, program priorities, and project design, as well as
into planning and budget formulation processes.”

        The RM Program Assistance and Evaluation Division coordinated drafting of the INL
Functional Bureau Strategy for FY 2014–FY 2016. Written in 2012, the strategy declares INL’s
intention to integrate performance monitoring and evaluation findings better into decisionmaking
about strategies and budget formulation. The Functional Bureau Strategy also notes the
development of a Program Management Dashboard to provide each country program with a
standard means of tracking its programmatic information. The dashboard, which remains in the
planning stage, could be an effective tool to integrate performance into the bureau’s strategic
planning and budgeting.

       RM’s Budget Planning, Formulation, and Presentation Division prepares INL’s annual
Bureau Resource Request, which is keyed to the INL Functional Bureau Strategy. The 2016
Bureau Resource Request states that INL used program performance information to inform and
support the submission, but INL was unable to document for the inspection team whether and
how performance results factored into the request. No evidence from specific program
monitoring and evaluations is included. Inspectors could not ascertain whether and how
performance results affect resource allocation. Without a standard process, as required by
Presidential Policy Directive 23 on Security Sector Assistance and the QDDR, foreign assistance
funds may be spent on ineffective programs.

Recommendation 13: The Bureau of International Narcotics and Law Enforcement Affairs
should integrate performance outcomes and evaluation findings into its strategic planning and
budgeting process. (Action: INL)




                                       17
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Financial Management
Automated Financial Management Systems

         The Department’s automated budget and accounting systems are not designed to manage
foreign assistance programs. Neither the domestic Global Financial Management System and its
data repository (Data Warehouse) nor the overseas Regional Financial Management System and
its data repository (Consolidated Overseas Accountability Support Tool) have the collection,
tracking, and analysis capacity to track funding and expenditures by program, project, or—
information that Congress, the Office of Management and Budget, and the Department’s own
comptroller routinely request. As a result, INL field office staff, as well as budget execution
analysts in Washington, must manually pull information from a variety of sources on obligations,
subobligations, and liquidations of program funds to create “cuff records 4” of their own design in
the form of Excel spreadsheets. This process is time consuming and subject to human error,
resulting in an inability to reconcile field, Washington, and automated records as well as
vulnerability to waste, fraud, and abuse.

        One consequence of INL’s inability to track adequately all unliquidated obligations
monthly, in accordance with 4 FAM 225, is that the bureau cannot generate timely reports on
funds available for reprogramming before they expire. At the end of FY 2013, for example, out
of $1.2 billion in centrally managed unliquidated obligations, INL deobligated $503 million,
including $58 million that it returned to the U.S. Department of the Treasury. Until a viable
financial management system is in place, the preparation of monthly reports of unliquidated
obligations by program, project, and country will remain time-consuming and incomplete. Yet,
despite the inadequacy of both the Global Financial Management System and Regional Financial
Management System in managing foreign assistance programs, the Department requires that all
bureaus use them for funds control.

        This issue extends beyond INL to all the Department’s foreign assistance functions. A
recommendation in OIG’s 2011 inspection of the Office of U.S. Foreign Assistance Resources 5
called for a study to determine whether there are cost-effective solutions for collecting timely
data on budget execution. OIG closed the recommendation in May 2013 when the Office of U.S.
Foreign Assistance Resources submitted a report on budget execution and noted that the Office
was working with the Bureau of the Comptroller and Global Financial Services to finalize
financial information for inclusion on ForeignAssistance.gov on a quarterly basis, which will
make the information available to Department offices and the public.

        Nevertheless, system deficiencies remain. The 2014 inspection of the Bureau of
International Security and Nonproliferation 6 found nearly identical issues hampering the
management of that bureau’s $600-million foreign assistance portfolio. That report
recommended that the Bureau of International Security and Nonproliferation work with the


4
  A manual accounting system, which can take any form that meets an organization’s needs, to track financial
activity. Derived from keeping accounts on the “cuff” of a shirt.
5
  Inspection of the Office of the Director of U.S. Foreign Assistance, ISP-I-11-57, August 2011.
6
  Inspection of the Bureau of International Security and Nonproliferation, ISP-I-14-19, July 2014.

                                           18
                               SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Bureau of Information Resource Management and with the Bureau of the Comptroller and
Global Financial Services to standardize systems and create a single searchable database.

        INL’s efforts to adapt the Global Financial Management System and the Regional
Financial Management System to accommodate the funding of INL programs have thus far not
been fully responsive to bureau financial management system needs. In 2009, INL contracted out
services to deploy a bureau financial reporting system called the Local Financial Management
System for all INL domestic and overseas finances. According to INL officials, overseas buy-in
was difficult since overseas mission financial management sections supporting INL had to
reconcile the Department’s Regional Financial Management System with the Local Financial
Management System. After investing approximately $2.3 million from 2009 to 2013, INL made
a cost-benefit decision to discontinue worldwide use of the Local Financial Management System
and pursue efforts to adapt Department systems to accommodate INL needs.

        During the course of the inspection, the Bureau instructed field personnel and
Washington analysts to put their “cuff records” into a uniform format—in effect, seeking to
standardize an existing workaround. At the direction of the Deputy Executive Officer, a working
group including representatives of INL/Resource Management and the Bureau of the
Comptroller and Global Financial Services was attempting to adapt systems to accommodate
INL’s needs, but INL forecasts the process will take several years and may not address all the
issues. A more promising approach could be to explore near-term alternatives, such as adopting
systems already developed and in use by USAID, or contracting with USAID to provide direct
back-office functions for the Department’s foreign assistance programs. The Office of
Management Policy, Rightsizing, and Innovation, whose stated vision includes working with
stakeholders to identify and resolve enterprise-wide issues, should take the lead in finding a
comprehensive solution to support all bureaus managing foreign assistance.

Recommendation 14: The Office of Management Policy, Rightsizing, and Innovation, in
coordination with the Bureau of U.S. Foreign Assistance Resources, the Bureau of the
Comptroller and Global Financial Services, and the Bureau of Information Resource
Management, should convene a working group with a mandate to adapt existing Department
systems or to adopt or develop an alternative system that would provide timely, accurate
information needed to manage foreign assistance. (Action: M/PRI, in coordination with F,
CGFS, and IRM)

Acquisition Support

        The Office of Acquisitions Management (AQM) performs procurement functions for all
INL non-commercial contracts and commercial item contracts that exceed the $5-million warrant
limits of INL contracting officers. Inspectors found lengthy delays with contract awards. Some
complex contracts require more than a year to award. INL pays a 1-percent surcharge on the
amount of each transaction to the Department’s Working Capital Fund. At this rate, payments for
the FYs 2012–2013 period exceeded $7 million.




                                      19
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        As noted in a 2013 OIG audit report, 7 AQM is not adequately staffed to provide timely
procurement services. The audit found that the number of AQM contracting officers and
procurement specialists did not grow commensurate with the surge in Department procurement
activity. During the inspection, a single AQM employee was dedicated to INL on a full-time
basis, assisted by 11 others. AQM plans to enlarge the INL unit within AQM and increase the
AQM staff at the Regional Procurement Support Office in Fort Lauderdale. This staff shortage
impaired critical contractual actions for interdiction, justice, and correction programs.

        INL ranks 13th among AQM customers in number of transactions and 5th in amount of
funds obligated. INL contracts are some of the largest and most complex that AQM processes.
For the period FY 2012–FY 2013, AQM processed 678 transactions for INL, representing more
than $700 million in obligated funds. INL currently has two contracting officers with limited
warrants of $5 million for commercial items and $250,000 for non-commercial items. The
bureau has demonstrated that it can successfully and expeditiously process these contracts.
Department of State Acquisition Regulation 601.603-70(5) delegates authority to the AQM
director to enter into and administer contracts for the expenditure of funds involved in the
acquisition of supplies and services, including construction. Increasing INL’s contracting officer
warrants levels to the government-wide authorization of $6.5 million for commercial items and
$1 million for non-commercial items, as well as orders under existing contracts up to the
maximum order limit, would permit INL contracting officers to focus on the smaller, less
complex awards and reduce the number of transactions AQM processes for INL. This would also
permit AQM to focus on INL’s large, complex contracts. With two additional warranted
contracting officers, INL would be able to ensure contractual actions are processed in a timely
and efficient manner.

Recommendation 15: The Bureau of Administration should revise the Bureau of International
Narcotics and Law Enforcement Affairs contracting warrants to increase warrant levels to $6.5
million for commercial items, $1 million for non-commercial items, and up to the maximum
limitation for orders under existing contracts and should grant these warrants to four Bureau of
International Narcotics and Law Enforcement Affairs contracting officers. (Action: A)

        In an effort to improve working relations, INL and AQM executed their first service-level
agreement on April 15, 2014. The agreement outlines responsibilities and key performance
indicators for forecasted volumes of services. The agreement requires quarterly review meetings
to discuss quality, timeliness, customer service, and changes in customer requirements.

Recommendation 16: The Bureau of Administration, in coordination with the Bureau of
International Narcotics and Law Enforcement Affairs, should revise the service level agreement
provision for quarterly reviews to include both an accounting of time AQM devoted to INL
service during the previous quarter and an accounting of turnaround time for each transaction, so
that both parties can assess whether the level of service provided is adequate in relation to the
fees paid. (Action: A, in coordination with INL)


7
 Audit of Department of State Application of the Procurement Fee to Accomplish Key Goals of Procurement
Services, AUD-FM-13-29, May 2013.


                                          20
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Training
       INL lacks a systematic approach to training staff. Despite an extensive library of training
catalogs and a 2012 Human Capital Development Plan, INL does not ensure that staff members
have the core skills necessary to do their jobs.

Bureau Orientation

        INL lacks an orientation procedure to teach new employees their job responsibilities and
requirements. The bureau updated its New Employee Handbook in March 2014. Two regional
offices have created their own employee handbooks to help new employees settle in. Both
offices update these handbooks separately when the bureau issues new guidance and procedures.
Despite these efforts, new staff struggle with program management and the basics of how to get
things done in the bureau. The Foreign Service Institute offers an INL orientation workshop once
a year, but it is oriented primarily to INL officers going overseas.

Recommendation 17: The Bureau of International Narcotics and Law Enforcement Affairs
should establish a “boot camp” for all new domestic staff which covers the basic doctrines,
procedures, and training requirements needed to assume their responsibilities. (Action: INL)

Competency Training

        New employees, both Civil and Foreign Service, generally do not have prior experience
managing foreign assistance programs. INL program officers do not receive training in program
management before assuming responsibility for a foreign assistance portfolio. Similarly, new
financial management analysts receive no formal training before becoming accountable for
foreign assistance resource management. Basic INL project management training for new staff
collides with urgent demands to become “operational.” Training is often deferred for months.
Core training courses 8 are offered online, but INL does not explicitly require program officers or
resource management staff to complete these courses prior to assuming their duties.

        The bureau has taken steps over the past year to identify and promote training and
professional development. Notably, INL worked with George Washington University to create a
3-week Project Management Professional certification program. This course is not yet a
requirement, but 45 Bureau employees have taken it and found it useful, recommending it to
their colleagues. The INL Course Catalogue lists 20 INL-specific courses, but the bureau has no
mandated curriculum. As a consequence, program officers and resource management staff
manage complex demands for project design, monitoring, and evaluation, with varying levels of
competence.

        Exceeding Department standards, INL requires Individual Development Plans for its
Civil Service positions and has achieved more than 90-percent compliance. (Foreign Service
positions have annual Work Requirements Statements.) The bureau recently created and filled a
Training Coordinator position, but the bureau has not yet established training and certification

8
 PP 420 (INL Program and Project Management), PP 421 (INL Financial Management), and PP 422 (INL Contract
Administration, Procurement Policies, and Procedures).

                                         21
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

requirements for every position and it does not work with supervisors to ensure that staff
receives necessary training in a timely fashion.

        Guidance in 13 FAM 022.5 holds managers and supervisors responsible for determining
the specific needs of their employees and ensuring that they receive training for effective job
performance. Project design, contracting, monitoring, and evaluation are specialized skills that
require strengthened staffing, training, and professional incentives.

Recommendation 18: The Bureau of International Narcotics and Law Enforcement Affairs
should establish and track training and certification requirements for every position in the
bureau. (Action: INL)

Foreign Service Institute Training

        Several basic INL courses designed to train program officers in project management
require updating to reflect new policies, doctrine, and procedures for project design and
management.

        Over the last 2 years, the bureau has issued numerous new guidebooks covering project
design, results frameworks, and developing performance measurement plans. Recent revisions to
the INL Financial Management Handbook and standard operating policies and procedures have
covered monitoring and evaluation. The Department recently issued new guidelines on how to do
program evaluation. This new material is not adequately reflected in online course content, some
of which has not been updated since 2008. As a result, program officers are taking online courses
that are out of date and do not reflect current program management guidance and standard
operating policies and procedures. This creates confusion when staff try to apply what they learn
to rapidly changing sets of requirements. The inconsistency between this online training and
current project and program management requirements affects productivity and morale.

Recommendation 19: The Bureau of International Narcotics and Law Enforcement Affairs
should update its existing Foreign Service Institute classroom and online training, in
coordination with the Foreign Service Institute, to reflect updated guidance and procedures.
(Action: INL, in coordination with FSI)

Bureau Communication

        Despite a growing intranet site and frequent administrative notices, inspectors found that
the bureau staff lacked information on front office decisions, priorities, and goals, as well as a
sense of bureau mission and purpose. Prior to and during the inspection, RM updated or drafted a
wide variety of new or modified standard operating policies and procedures. Inspectors found
that in many cases, program officers were unaware of these documents.

Recommendation 20: The Bureau of International Narcotics and Law Enforcement Affairs
should create and circulate a monthly internal bureau report to address policy and program
management issues, as well as personnel-related developments and decisions. (Action: INL)

       The Office of Policy, Planning, and Coordination launched a monthly electronic
newsletter, the BEAT, in January 2013. INL describes its mission as “informing the general
                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

public about INL’s work” as well as “to share success stories and updates” within the bureau.
The BEAT serves no practical internal information purposes, and INL has not defined the
external target audience for this publication.

Recommendation 21: The Bureau of International Narcotics and Law Enforcement Affairs
should revise the mission and objectives of its BEAT newsletter so that it is targeted to the
appropriate external audiences and conduct a survey of external recipients to gauge its
effectiveness and guide revisions. (Action: INL)




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Records and Files
Project Files

        Inspectors requested that INL produce a list of all projects that were active in FY 2013.
The bureau was not able to do so. Instead, it provided a list of 1,577 projects to which it had
allocated funds in FY 2013. From this list, OIG selected 72 project files that represented nearly
50 percent of the $1.1 billion allocated in FY 2013. Inspectors determined that most of the files
did not contain all required documentation, including performance metrics, regular reporting by
implementers on performance, and performance monitoring by INL, as Department regulations
require. The designation of contracting officer’s representatives and grants officer
representatives in the project files was often incorrect and outdated., The contracting officer’s
representatives and grants officer representatives files were also incomplete and inconsistent
across the different program offices. 9

       INL does not have a standard system for maintaining project files. Without accessible and
complete project files, INL managers cannot effectively monitor and evaluate projects.
According to bureau policy, effective monitoring and evaluation allows the bureau to: determine
whether projects are achieving their goals and adjust projects as necessary; plan effective
programs; report program results to key stakeholders and oversight entities; justify resource
requests; promote necessary changes in partner support; and contribute to constructive policy
dialogue within the U.S. Government, civil society, and international fora.

Recommendation 22: The Bureau of International Narcotics and Law Enforcement Affairs
should standardize procedures for the maintenance of project files and hold accountable those
assigned responsibility for maintaining project files by including project file maintenance in their
work requirements and performance reviews. (Action: INL)

Records Management

        INL lacks an effective records management program that clearly establishes the
procedures for records identification, storage, organization, and retention, as required by 5 FAM
414.4. Files and records are stored in several locations—the bureau’s network shared drive,
SharePoint document libraries, personal emails, hard drives, and on paper. In early 2014, INL
began working with the Bureau of Administration to realign its records management processes.
The Department specifies that files be organized by year, using standardized terms so that files
are readily accessible and that new personnel can locate needed information

Recommendation 23: The Bureau of International Narcotics and Law Enforcement Affairs
should implement a records management program that includes procedures for records
identification, storage, organization, retention, and retirement. (Action: INL)




9
 A March 2014 OIG Management Alert (MA-A-0002) identified significant vulnerabilities in the management of
contract file documentation that could expose the Department to substantial financial losses.

                                          24
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


    Information Management
           The newly appointed Information Management (IM) division director has focused on
    defining the office’s support functions and aligning them with the bureau’s goals. He has also
    made customer service a priority by soliciting feedback from INL offices.

    Information Technology Strategic Planning

            INL lacks an updated information technology strategic plan establishing objectives to
    improve the bureau’s IM tools. According to 5 FAM 1010, an information technology strategic
    plan is a long-term, high-level plan that defines a systematic way for a bureau or office to use
    technology to accomplish mission goals and objectives. An updated information technology
    strategic plan, endorsed by management, would also define performance metrics and ensure that
    projects are consistent with the 5 FAM 1010 criteria.

    Recommendation 24: The Bureau of International Narcotic and Law Enforcement Affairs
    should establish an information technology strategic plan that outlines the Information
    Management mission and objectives. (Action: INL)

    Knowledge Management Initiative

            In 2013, INL launched a Knowledge Management Initiative to facilitate sharing, reusing,
    and archiving information and processes. INL’s SharePoint site is the primary platform for the
    Knowledge Management Initiative. IM staff adapted the SharePoint site to standardize bureau
    pages, create repositories for commonly used processes, and add complex workflows to automate
    business processes and calculate fiscal data. INL staff has started to use SharePoint to
    collaborate, task, share, and communicate information across the bureau.

    Interagency Agreement System

            INL uses interagency agreements (IAA) as its primary mechanism for funding projects by
    other government agencies, primarily the U.S. Department of Justice and the U.S. Department of
    Homeland Security. Concluding these agreements has been time-consuming and cumbersome,
    often requiring as long as 9 months. INL used three separate systems to administer IAAs with
    information routed through email. In early 2014, INL established a knowledge management team
    to streamline the IAA process and ensure transparency, accountability, and oversight. During the
    inspection, the knowledge management team launched the iTrack system for interagency
    agreements. On the basis of early feedback, iTrack could fundamentally change the way INL
    manages the IAA process and provide a model for other INL operations.
[Redacted] (b) (5)




                                           25
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED
 [Redacted] (b) (5)




[Redacted] (b) (5)



      Global Project Management and System Analysis

              In 2012, INL established the Global Project Management and System Analysis program
      in RM’s Information Management Division to provide information technology technical
      assistance for INL overseas projects that have an information technology component. This is the
      only technical assistance function RM manages. A separate functional office in the bureau is
      responsible for providing subject matter expertise to INL projects. Inspectors identified
      weaknesses in allocating program resources, planning, oversight, accountability, and the overall
      management of this program. The program’s project plans and trip reports lacked standardization
      and several projects had incomplete or missing documentation.

      Recommendation 26: The Bureau of International Narcotics and Law Enforcement Affairs
      should clearly define the objectives of the Global Project Management and System Analysis
      program and determine how best to fulfill the requirements for information technology technical
      assistance. (Action: INL)




                                            26
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Security Management
        A bureau security officer provided by the Bureau of Diplomatic Security (DS)
administers the INL security program. The INL Deputy Executive Director for Resource
Management is responsible for the bureau’s security program and for providing day-to-day
direction to the bureau security officer. The bureau security officer’s rater and reviewing official
are DS employees. This arrangement has proven to be difficult to manage. Limited interaction
between RM and the bureau security officer highlights a lack of program structure and support.
The bureau security officer is located in State Annex 22, detached from management and most
employees, making it difficult for the bureau security officer to interact with them.

        DS and RM are in the process of formalizing a memorandum of agreement defining
bureau security officer support. The memorandum of agreement is intended to clarify roles and
responsibilities, reinforce the INL security program, and lay the groundwork for much-needed
structure.

Recommendation 27: The Bureau of International Narcotics and Law Enforcement Affairs, in
coordination with the Bureau of Diplomatic Security, should complete a memorandum of
agreement on bureau security officer support. (Action: INL, in coordination with DS)

        Security alarm systems are not tested annually in accordance with Department
requirements. Guidance in the Physical Security Standards for Department of State Domestic
Occupied Space, dated June 28, 2010, require the unit security officer to walk-test annually the
intrusion detection systems. This practice is not being conducted and documented, calling into
question whether the alarms actually work.

Recommendation 28: The Bureau of International Narcotics and Law Enforcement Affairs, in
conjunction with the Bureau of Diplomatic Security, should test annually its security alarm
systems. (Action: INL, in coordination with DS)




                                        27
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of International Narcotics and Law Enforcement Affairs
should divide the Office of Resource Management into three offices: an Office of the
Comptroller; an Office of Strategic Planning and Budgeting; and an Executive Office—all three
reporting to the same deputy assistant secretary. (Action: INL, in coordination with DGHR)

Recommendation 2: The Bureau of International Narcotics and Law Enforcement Affairs
should move the Public Affairs and Public Diplomacy unit to the front office. (Action: INL)

Recommendation 3: The Bureau of International Narcotics and Law Enforcement Affairs
should reorganize the Office of Anticrime Programs; the Office of Criminal Justice and
Assistance Partnerships; and the Office of Policy, Planning, and Coordination into two offices,
one of which should be responsible for policy direction and coordination and the other
responsible for training, justice system subject matter expertise, and technical assistance.
(Action: INL, in coordination with DGHR)

Recommendation 4: The Bureau of International Narcotics and Law Enforcement Affairs, in
coordination with the Bureau of Human Resources, should divide the Office of Africa and
Middle East Programs into two separate geographic offices. (Action: INL, in coordination with
DGHR)

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs
should systematically record and disseminate policy and program decisions and taskings,
including those issued in front office meetings. (Action: INL)

Recommendation 6: The Bureau of International Narcotics and Law Enforcement Affairs
should require that each regional program office develop country plans in alignment with
Integrated Country Strategies and other applicable strategic planning instruments, integrating
performance information, for every country in which it conducts programs or projects. (Action:
INL)

Recommendation 7: The Bureau of International Narcotics and Law Enforcement Affairs
should develop sustainability guidance that includes best practices and contains standardized
metrics that are required for performance measurement plans. (Action: INL)

Recommendation 8: The Bureau of International Narcotics and Law Enforcement Affairs
should use full and open competition as the default mechanism for awarding grants and
cooperative agreements. (Action: INL)

Recommendation 9: The Bureau of International Narcotics and Law Enforcement Affairs
should define specific roles and responsibilities for program management across the life cycle of
a program, both in Washington and overseas. (Action: INL)

Recommendation 10: The Bureau of International Narcotics and Law Enforcement Affairs
should standardize its process for drafting, testing, disseminating, and implementing all new
program management policies and procedures. (Action: INL)


                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of International Narcotics and Law Enforcement Affairs
should make compliance with its Standard Operating Policy/Procedures on Monitoring and
Evaluation mandatory. (Action: INL)

Recommendation 12: The Bureau of International Narcotics and Law Enforcement Affairs
should require all staff to submit trip reports promptly. (Action: INL)

Recommendation 13: The Bureau of International Narcotics and Law Enforcement Affairs
should integrate performance outcomes and evaluation findings into its strategic planning and
budgeting process. (Action: INL)

Recommendation 14: The Office of Management Policy, Rightsizing, and Innovation, in
coordination with the Bureau of U.S. Foreign Assistance Resources, the Bureau of the
Comptroller and Global Financial Services, and the Bureau of Information Resource
Management, should convene a working group with a mandate to adapt existing Department
systems or to adopt or develop an alternative system that would provide timely, accurate
information needed to manage foreign assistance. (Action: M/PRI, in coordination with F,
CGFS, and IRM)

Recommendation 15: The Bureau of Administration should revise the Bureau of International
Narcotics and Law Enforcement Affairs contracting warrants to increase warrant levels to $6.5
million for commercial items, $1 million for non-commercial items, and up to the maximum
limitation for orders under existing contracts and should grant these warrants to four Bureau of
International Narcotics and Law Enforcement Affairs contracting officers. (Action: A)

Recommendation 16: The Bureau of Administration, in coordination with the Bureau of
International Narcotics and Law Enforcement Affairs, should revise the service level agreement
provision for quarterly reviews to include both an accounting of time AQM devoted to INL
service during the previous quarter and an accounting of turnaround time for each transaction, so
that both parties can assess whether the level of service provided is adequate in relation to the
fees paid. (Action: A, in coordination with INL)

Recommendation 17: The Bureau of International Narcotics and Law Enforcement Affairs
should establish a “boot camp” for all new domestic staff which covers the basic doctrines,
procedures, and training requirements needed to assume their responsibilities. (Action: INL)

Recommendation 18: The Bureau of International Narcotics and Law Enforcement Affairs
should establish and track training and certification requirements for every position in the
bureau. (Action: INL)

Recommendation 19: The Bureau of International Narcotics and Law Enforcement Affairs
should update its existing Foreign Service Institute classroom and online training, in
coordination with the Foreign Service Institute, to reflect updated guidance and procedures.
(Action: INL, in coordination with FSI)

Recommendation 20: The Bureau of International Narcotics and Law Enforcement Affairs
should create and circulate a monthly internal bureau report to address policy and program
management issues, as well as personnel-related developments and decisions. (Action: INL)

                                       29
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

     Recommendation 21: The Bureau of International Narcotics and Law Enforcement Affairs
     should revise the mission and objectives of its BEAT newsletter so that it is targeted to the
     appropriate external audiences and conduct a survey of external recipients to gauge its
     effectiveness and guide revisions. (Action: INL)

     Recommendation 22: The Bureau of International Narcotics and Law Enforcement Affairs
     should standardize procedures for the maintenance of project files and hold accountable those
     assigned responsibility for maintaining project files by including project file maintenance in their
     work requirements and performance reviews. (Action: INL)

     Recommendation 23: The Bureau of International Narcotics and Law Enforcement Affairs
     should implement a records management program that includes procedures for records
     identification, storage, organization, retention, and retirement. (Action: INL)

     Recommendation 24: The Bureau of International Narcotic and Law Enforcement Affairs
     should establish an information technology strategic plan that outlines the Information
     Management mission and objectives. (Action: INL)
[Redacted] (b) (5)




     Recommendation 26: The Bureau of International Narcotics and Law Enforcement Affairs
     should clearly define the objectives of the Global Project Management and System Analysis
     program and determine how best to fulfill the requirements for information technology technical
     assistance. (Action: INL)

     Recommendation 27: The Bureau of International Narcotics and Law Enforcement Affairs, in
     coordination with the Bureau of Diplomatic Security, should complete a memorandum of
     agreement on bureau security officer support. (Action: INL, in coordination with DS)

     Recommendation 28: The Bureau of International Narcotics and Law Enforcement Affairs, in
     conjunction with the Bureau of Diplomatic Security, should test annually its security alarm
     systems. (Action: INL, in coordination with DS)




                                            30
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                     Name     Arrival Date
Assistant Secretary                                 William R. Brownfield            01/11
Principal Deputy Assistant Secretary                        Carol Z. Perez           12/13
Deputy Assistant Secretary                               M. Brooke Darby             03/11
Deputy Assistant Secretary                              Todd D. Robinson             07/11
Deputy Assistant Secretary                                Luis E. Arreaga            11/13
Office of Anticrime Programs                          John M. Brandolino             02/13
Office of Policy, Planning and Coordination                  Eric F. Green           08/13
Controller/Executive Director, Resources and
Management                                                 James A. Walsh           02/13
Office of Europe and Asia Programs                          George P. Kent          07/12
Office of Western Hemisphere Programs                       James B. Story          08/13
Office of Afghanistan and Pakistan Programs                James P. Dehart          11/13
Office of Africa and Middle East Programs                  Lisa A. Johnson          05/12
Office of Criminal Justice and Assistance
Partnerships                                    Michelle Greenstein, Acting         11/13
Office of Aviation                             Donald W. Campbell, Acting           04/14




                                      31
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix: Human and Financial Resources
                                              INL Staffing
U.S. Staff–     Foreign         Civil         3161s      WAE          Detailees Students/Interns       Total
Domestic        Service        Service
                  29            277             0         14             9               3              332
U.S. Staff–     Foreign        Civil          3161s      WAE                                           Total
Overseas        Service       Service
                             Excursions
                    91             2              0         0            0                               93



Resources Controlled by INL (in thousands)*
Funding Description                                                                             Amount
Operational Funding for Full-Time Equivalents in Office of Anti Crime
                                                                                                        $862
Programs (FY 2013 Diplomatic and Consular Programs)*
FY 2013 Representation Funds**                                                                           $17
FYs 2012–13 International Narcotics Control and Law Enforcement
Affairs***                                                                                       $1,610,905
FYs 2012–13 Transfers-In Economic Support Funds****                                                 $11,100
FYs 2012–13 Reimbursements Received by the Bureau of International
                                                                                                    $47,520
Narcotics and Law Enforcement Affairs*****
Total                                                                                            $1,670,404
*Diplomatic and Consular Programs and Representational funds are accounted for on annual fiscal year
appropriation basis; INCLE and Transfers/Reimbursements are accounted for on a 2-fiscal year appropriation
basis.
**INL received $16,755 in representation fund but spent $12,617.63.
***Represents FY 2012/2013 appropriated INCLE funds.
****Represents FY 2012/2013 Transfers into INL.
*****Represents FY 2012/2013 Reimbursements that INL received.




                                          32
                              SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AQM              Bureau of Administration, Office of Acquistitions Management

DAS              Deputy assistant secretary

Department       U.S. Department of State

DS               Bureau of Diplomatic Security

FAM              Foreign Affairs Manual

IAA              Interagency agreement

IM               Information management

INCLE            International Narcotics Control and Law Enforcement

INL              Bureau of International Narcotics and Law Enforcement Affairs

OIG              Office of Inspector General

QDDR             Quadrennial Diplomacy and Development Review

USAID            United States Agency for International Development




                            33
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
